the Division of   -     CLOSEOUT FOR M95 100041

       This case was brought to OIG by Dr.

misconduct in science made by Dr.
of a proposal2 declined by the
the PI and two co-PIS (the subj-experiment
                                                                  a program director in
                                                                   to an allegation of
                                                    (the reviewer) in his written review
                                                   program. The reviewer noted that
                                                                examining the effects of
certain experimental treatments on the interactions. between two species growing
together in a single garden, and that another researcher,
previously reported results of a similar experiment using the Sam=
                                                                                     had
                                                                                    1987
Ph.D. dissertation.' The dissertation had been completed at the same department
where two of the subjects are faculty members; the third subject is in another
department at the same institution. Accordingly, the reviewer thought that they
would be aware of the dissertation. The reviewer also mentioned that the subjects'
proposal had certain methodology in common with a declined NSF proposal5
submitted by the other researcher five months before the subjects submitted their
proposal. The reviewer, a faculty member affiliated with the other researcher's
current institution, had reviewed the other researcher's proposal before it was
submitted to NSF. The reviewer was disturbed by the degree of similarity of the
subjects' proposal to work done or proposed by the other researcher, without any
mention of her work.

        To inquire into this allegation of intellectual theft and failure to cite, OIG
examined the other researcher's proposal and dissertation, and compared them with
the subjects' proposal. The subjects were clearly familiar with the other researcher's
proposal; the other researcher had included a letter of support from two of the subjects
in her application. Both the subjects' proposal and the other researcher's dissertation
and proposal involved similar experimental treatments of the species grown together.
The other researcher changed these variables one at a time, but the subjects'
experiments were to manipulate these and other variables in combination, evaluating
their relative importance statistically. The subjects' proposal also differs from the other
researcher's dissertation in its hypothesis that certain conditions influence competition
between the species being studied. By contrast, the other researcher's dissertation
concludes that one of the conditions does not exacerbate competition between these
species.

       The observation that interspecies competition may be affected by manipulating
certain physical conditions is by no means a new one. Although the experimental




                                   Page 1 of 2                               M95-41
                        CLOSEOUT FOR M95 100041
measurements and manipulations have become more sophisticated, our review of the
literature showed that this general type of experiment dates back over one hundred
years. In her dissertation, the other researcher cites references examining the effect of
these conditions on interspecies competition dating from the 1950's. Moreover, the
subjects' proposal cites observational studies dating from the 1940's of the effects of
these conditions on interspecies competition between the same species worked on by
both the subjects and the other researcher. Finally, the other researcher cites
references dated from 1978 to 1986 to certain methodology noted by the reviewer in
the subjects' declined proposal as well as the other researcher's; the other researcher
states that such methodology has been used extensively in the past.

       Both the grant histories and publication records of the subjects show that they
did not newly undertake research on these species with the submission of their 1994
proposal. Rather, these individuals were well established in this field, in one case for
approximately two decades, long before the other researcher began her research.

        Although there is considerable overlap in the general approach taken by the
other researcher and the subjects, the approach taken by both groups is historically
well established and by no means unique to the other researcher or originated with
her. It is not surprising that two groups working in highly related areas proposed
similar or overlapping research. The subjects have more than sufficient background to
have proposed their research independently, and we conclude that the subjects'
proposal did not derive from the other researcher's work.

        We also conclude that the subjects did not commit misconduct in science by
failing to cite the other researcher's proposal or dissertation, even though both were
relevant to the subjects' proposal. There is no evidence that the subjects appropriated
words, nor do the ideas derive directly from the other researcher's dissertation or
proposal. Assuming that the subjects were aware of the dissertation, it would have
been appropriate to cite it. However, given the existence of many other sources which
they could cite, including their own publications, we conclude that if they decided not
to cite a seven-year old dissertation that would not be widely available, that would not
be unreasonable; nor would it have been unreasonable to decide not to cite a
confidential declined proposal.

       From the foregoing analysis, we concluded that the allegations of misconduct in
science did not have substance and no further inquiry was needed.

       This inquiry is closed and no further action will be taken.

cc: Assistant Counsel to the IG, Deputy AIG-Oversight, AIG-Oversight, IG




                                   Page 2 of 2
